CERTIFICATE OF SERVICE
I certify that on February 18, 2021, I filed an original
of the foregoing “PETITION FOR A WRIT OF
CERTIORARI,”
Certificate
of
Appendices,
Counsel/Self-Represented Petitioner of the number of
words and Verification and a check for filing fees with
the Clerk of the Court in the Supreme Court of the
United States, by Fedex, by Express Priority for
overnight delivery to:
Clerk of Court, Supreme Court of the United States,
1 First Street, NE, Washington, DC 20543;
and I certify that on the same day, I served three
copies each on counsel of record for all Respondents
and Amicus Curiae, via email and by Express Mail
via the U.S. Postal Service for overnight delivery at
the following address:
CITIGROUP INC., CITICORP, CITIBANK, N.A.
(“Citi”);
Eric Sophir, Foley & Lardner LLP
3000 K Street NW, Washington, DC 20007
202-295-4149; esophir@foley.com
Counsel for Citi;
Daniel Brune, Amicus Curiae
1200 Via Tornasol, Aptos, CA 95003
(831) 818-5950
Pro Se
Dr. Sherna Madan, Amicus Curiae
39 Birch Street, Redwood City, CA 94062
(650) 631-6800
Pro Se

Murugappan Natesan, Amicus Curiae
3589 Rosincress Drive, San Ramon, CA 94582
Pro Se
February 18, 2021

Respectfully submitted,

Dr. Lakshmi Arunachalam
222 Stanford Ave, Menlo Park, CA 94025
650 690 0995; laks22002@yahoo.com
Self- Represented Petitioner
Dr. Lakshmi Arunachalam

